BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Reply Brief in 20-1415, Hyung Jin

"Sean" Moon v. Hak Ja Han Moon, Holy Spirit
Association for the Unification of World Christianity,
Family Federation for World Peace and Unification
International, Hyo Yul Kim, "Peter", Douglas D. m. Joo,
Chang Shik Yang, Ki Hoon Kim, Michael W. Jenkins,
Michael Balcomb, FarleyJones,Alexa Ward, JohnDoes
1-6, was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
via e-mail service to the following parties listed below,
this 18th day of May, 2021:
Laura G. Ferguson
Miller & Chevalier Chartered
900 Sixteenth street, NW
Black Lives Matter Plaza
Washington, DC 20005
(202) 626-5567
lferguson@milchev.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Aaron M. Herzig
Counsel of Record
Jonathan G. Polak
Lynn Rowe Larsen
Spencer S. Cowan
Taft Stettinius & Hollister LLP
425 Walnut Street, Suite 1800
Cincinnati, OH 45202
Phone: (513) 357-8768
aherzig@taftlaw.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 18, 2021.

Amy Triplett Morgan
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

V

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expir2s
f"cbri1ary 14, 2023

